June 8, 2020

zo- 1/ 5 2.
Scott. S. Harris, esq.
20th Clerk of the Supreme Court of the United States
Office of the Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543-0001
VIA U.S. MAIL AND EMAIL
Re:

, Petition for a Writ of Certiorari
Davis v. California,
See e.g. No. 19A726, 19A914 (and all associated matters thereof)

Dear Mr. Scott S. Harris:
Please Accept this Letter as NOTICE of Petitioner, Applicant, defendant,
appellant, Mr. Gavin B. Davis' BLANKET CONSENT for the filing of AMICUS
BRIEFS, letters or other items, in support of either or neither party in Davis v.
California, and all matters associated with such before this Court; without prejudice'
to Petitioner, Mr. Gavin B. Davis' Request for Relief in pending Ninth Circuit, case
no.: 20-55157, from United States District Court, Southern District of California,
USDC SD Cal, 19-834, Davis v. Adler et. al., for, generally, four (4) types of Privacy
violations including but not limited to Misappropriation, and Conspiracy2 (19-834,
Doc. 1, Claims #1 - #5), where such defendants that have entered do not deny the
facts, allegations or claims in their pre-trial motions-to-dismiss, seeking technical
claim preclusion, which Mr. Davis holds as constructive to additional claims including
but not limited to Fraud, Deceit and Fraudulent Deceit.

Davis seeks (USDC SD Cal, 19-834, Complaint, Doc. 1, Request for Relief), in part,
Permanent Injunctive Relief (now and forever in the future) and expressly reserves all rights
including but not limited to the Digital Equivalent of the Right to Quiet Enjoyment; the Right
to be Let Alone and otherwise.
2 Drawing verbatim authorities from: CRS Report R41222, Federal Conspiracy Law: A
Sketch, by Charles Doyle, (2016), Federal Conspiracy Law: A Brief Overview, Sanctions,
Imprisonment, Fines, Restitution, pg. 11-13, Doyle (2016). Davis has alleged that such
egregious violations extend well beyond civil and are de facto criminal in nature (e.g. 18
U.S.C. §§ 2261A, 2511; 47 U.S.C. § 223; 18 U.S.C. § 4), prima facie.

1

Page 1 of 3

Mr. Davis has begun bringing Davis v. California (e.g., 19A726, 19A914 and
the Petition for a Writ of Certiorari, once docketed by the Court) to the attention of
various parties believed to have each of the capability, expertise and appropriateness
to file material Amicus Briefings in this matter:
Criminal Law Professors from Leading Universities such as:
American University
Brown University
California Western, School of Law
Columbia University
Georgetown University
Harvard University
Indiana University
Loyola Marymount University
New York University
Ohio State University
Stanford University
University of California, Berkeley
University of California, Los Angeles
University of Hawaii
University of Nevada Las Vegas (UNLV)
University of New Mexico
University of Richmond
University of Tennessee (Knoxville)
University of Virginia
Wake Forest University
Civil Rights Organizations
CATO Institute
Center for Constitutional Rights
Equal Justice Institute
Equal Justice Under Law
NAACP
Public Justice Center3
Texas Civil Rights Project
Other
California State Assembly and Congressional Members, such as those that signed
California Senate Bill No. 10, regarding bail reform
indicated, "Unfortunately, we do not have the capacity to take on amicus support in this
matter" (1/16/20)
3

Page 2 of 3

Thank you for your kind assistance.
Sincerely,
/s/ Gavin B. Davis
Gavin B. Davis
Pro Per & Federalist
858.876.4346
Gavinprivate96@gmail.com

Page 3 of 3

